HHS/OIG, Audit - "Review of the Medicaid Program's Use of Consultants on
a Contingency Fee Basis," (A-04-05-00015)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid
Program's Use of Consultants on a Contingency Fee Basis," (A-04-05-00015)
February 27, 2007
Complete Text of Report is available in PDF format (2.97 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the reasonableness and allowability of Medicaid costs claimed for reimbursement by the North Carolina Department of Health and Human Services (the State agency) as a result of contingency fee arrangements with consultants. The State agency overstated its claims for reimbursement by $125,361 (Federal share) for cost report adjustments owing to the use of misclassified expense data during computation of the claim.
We recommended that the State agency refund $125,361. The State agency agreed.